In the Supreme Court of the United Sta tes
SffiVEM COOPER
Petitioner,
v.

■smias^OKHmiDA
J&s^tmdent3^
On Petition for a Writ of Certiorari to the
Florida PostTbstriclG^^
CERTIFICATE OF SERVICE
The

ceriifesifeal: on M
3i 16> 2021, a copy of
HLMt**

the Petition for Writ of Certiorari and a copy of die Motion for leave to Proceed In
Forma Pauperis in the above-entitled

and a

were

served via email and/or dectronic servicet© ieramferjTHme@myfloridaIegaI.corn,
Attorney for State of Florida Assistant Attorney General Office of the Attorney

General P1DI, the C^mriMMsasse^mSSm-Mm,

/s/Steven Cooper, Pro Se
POBok 18617
Panama Qty Beach, FL 32417
AdversePossessionIsNotACrime@gmail.com
850-312-5243

